                                                                                                              11

                                                   NATIONAL SCIENCE FOUNDATION                                11

                                                    OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM
                                                                                                         I)




I   Case Number: 104-12-0052
                                                                                               Page Ifof 1



          The National Science Foundation, Office of Inspector General, conducted a review of fiscal year
          2000 through fiscal year 2003 closed awards that involved substantial participant support funds. As
          part of the review, we requested the grantee1provide financial information and supporting
          documentation on NSF award.2                                                               I




          The documentation provided by the grantee revealed several questionable expenses. The Grants
          Administrator in the Office of Sponsored ~ r o ~ r a m ~ e x ~ l athat
                                                                             i n e there
                                                                                   d     was confusion over the
          supply items because the award had two,components:a workshop and fieldwork. Given the unusual
    ,     circumstances the grantee requested that the supply costs be covered by the grant. The grantee also
          acknowledged that4 participant support funds were mistakenly used for travel costs.         ,


          The program officer5 advised that the purchases were used in support of the workshop and field
          project and therefore would have been considered an appropriate participant support cost.

          The grantee forwarded payment for the travel costs to NSFIOIG and ensured that no federal funds
          were used for reimbursement.

          Accordingly, this case is closed.




          ' Footnote redacted
           Footnote redacted
           Footnote redacted
           Footnote redacted
           Footnote redacted




NSF OIG Form 2 (1 1/02)
